                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11050037 ·                                                                     Page 1 of 1



                We received a substantive allegation that a PI (Subject) 1 plagiarized in an NSF Proposa1. 2
        We referred the investigation to the University3 which concluded the omission of quotation marks,
        indentations, and proximate citations for copied text were a stylistic choice that did not amount to
        plagiarism. The University took no action.

                 We could not accept the University's Report and conducted our own investigation. Our
         investigation revealed that the unattributed text represented a significant departure from accepted
         practices of the Subject's research community. Based on the preponderance ofthe evidence, we
         found that the Subject recklessly plagiarized in his NSF Proposal. The Deputy Director took
         actions based on our report.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter constitute
         the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
                                  NATIONAL SCIE;NCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGtNIA 22230




                                                                                JUN fl 6 1013
     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       . Re:    Notice of Research Misconduct Determination


Dear-



                           As documented in the attached Investigative Report prepared by
NSF's Office of Inspector General ("OIG''), this proposal.contained plagiarized material.


 Research Misconduct and Proposed Sanctions
         Under NSF's regulations, "research misconduct"· is defined as "fabrication, falsification,
 or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
 defines "plagiarism" as "the appropriation of another p~rson' s ideas, processes, results or words
 without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
 requires that:

        (1) There be a significant departure from accepted practices of the relevant research
            community; and
       · (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
         (3) The allegation be proven by a preponderance of evidence.

 45 CFR § 6S9.2(c).

        ' Your proposal contained verbatim and paraphrased text copied from several source
  documents. By submitting a proposal to NSF that copied the ideas or words of another without
  adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
  else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
  conclude that your actions meet the definition of "research misconduct" set forth in NSF's
. regulations.
                                                                                              Page2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism .was committed recklessly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a fmding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and Ill) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct wa.S part of a pattern, and had
minimal, if any, impact on the research record. I have also considered other relevant
circumstances. 45 CER § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you: ·

       (1) Until June 1, 2015, you must provide certifications to the OIG that any proposal or
           report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

      · (2) Until June 1, 2015, you must submit assurances to the OIG from a responsible official
            of your employer that any proposal9r report you submit to NSF as a PI or co-PI does
            not contain plagiarized, falsified, or fabricated material;

       (3) By June 1, 2014, you must complete a responsible conduct of research training
           program, for which the instruction should be in an interactive format (e.g., an
           instructor-led course) and specifically include plagiarism. you must provide
           documentation of the program's content and proof of its completion to the OIG; and

       (4) Until June 1, 2014, you are prohibited from serving as a reviewer, advisor, or
           consultant for NSF.
                                                                                           Page3
       The certifications, assurances and written documentation of the training program should
be submitted in writing to NSF's OIG, Associate Inspector General for Investigations, 4201
Wilson Boulevard, Al-lington, Virginia 22230.


Procedures Governing Appeals


        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this Q.ecision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4-201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

      For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call           , Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                     FaeKorsmo
                                                     Senior Advisor




Enclosures
- Investigative Report
   45 C.F.R. Part 689 ·
                       National Science Foundation • Office of Inspector General
                        4201 Wllson Boulevard, Suite II-705, Arlington, Vttginia 22230


                                                  FEB ~-,.~ 2013 ·


To:            Cora B. Marrett
               Deputy Director

From:
                   .                 n r   ',-L-!Ir.
               Allison C. Lerner Ll(viA-· ,-/¥ r \..
                                                        C-· Cw&"---Y
               Inspector General

Subject:       Research Misconduct Investigation Report All 050037


         Attached is our investigation report cortce1mrtg                               of research misconduct
                                                                 <LI..I."•I<. .....u ......

agairtst                   an                                                                      On the basis of our
investigation, we concluded                                                ......u,.u..u.•-•vu in one proposal to NSF.



       We recommend that NSF find t h a t - committed research misconduct and take
additional actions, which we believe will adequately protect NSF's interests. Each of our
recommended actions is described in detail in the report. The actions we recommend are
consistent with previously adjudicated cases (All 010002, Al 00300 18). The subject did not
provide comments on our draft report.

       If you have any questi6ns about the investigation report or our recommended fmdings
and disposition, I would be happy to discuss them with you. My staff point of contact for this
matter is James Kroll at 703-292-5012.           .




Attachment

cc:     Lawrence Rudolph, General Counsel
        Kathryn Sullivan, Office of the Director's Liaison to.OIG
SENSITIVE                                                                                           SENSITIVE




         National-Science Foundation
           Office of Inspector General




                     Report of Investigation
                    Case Number A11050037
                                February 5, 2013

                     ·...•. ·_ ·This Report ?tln"e~ti~aii~n-isprovi4ed to you .•. ·
                                       · FOR OFFICIAL USE ONLY.
  .It contains proteCted personal inforrn:iti~n: the UJJ.autb.ori_;;ed disclos1rre of which niay i-esclt in.··
. persoriaJ criillinalliability under the Privacy Act, 5 U.S, C. § 552a This report may be further
. disclosed Withll_:t ·NSF oizly to ·individuals ·who must· haye J.aiowledge of its. contents to
•· facilitate ~SF's .assessment and resolution        ofthis matter. ):his report      may  be disclosed:
   outside NSF only undet the Freedom of.Informatiori and Privacy-Acts, 5 U.S.C. §§ 552 & .
·. S52~. Please thlceappropriate precautions handling thiS report ofinvestigation.             . .

                                                                                        NSF OIG Form 22b (1/13)
SENSITIVE                                                                            SENSITIVE


                                    Executive Summary


Allegation:      Plagiarism.

OIG Inquiry:     OIG identified 4 sources from which approximately 911ines and 1 embedded
                 reference were copied into an NSF proposal that had both a PI (Subjectl) and
                 co-PI (Subject2). During our inquiry, the subjects revealed more material,
                 resulting in a revised total of 93 lines, 1 embedded reference, and 1 figure.
                 Subject1 took responsibility for 87lines ofthe'material and Subject2 took
                 responsibility for the remaining 6 lines and the figure. OIG referred
                 investigation of the matter to only Subjectl 's home institution.

University
Investigation:   The University concluded that no research rp.isconduct occurred. However we
                 could not accept the report and commenced our own investigation.

OIG
Assessment:
                 •   The Act: Subjectl plagiarized 87lines from 3 sources into an NSF
                     proposal.
                 • . Intent: Subjectl acted at least recklessly. '
                 • Standard of Proof: A preponderance of evidence supports the conclusion
                     that Subjectl committed plagiarism.
                 • Significant Departure: Subjectl 's plagiarism represents a significant
                     departure from accepted practices of the research community.
                 • Pattern: A moderate pattern of plagiarism was identified.

OIG
Recommends:
                 • Make a finding of research misconduct against Subjectl.
                 • Send Subject! a letter of reprimand.
                 • Require certifications from Subjectl for a period of 2 years.   .
                 • Require assurance from Subject 1's employer for a period of 2 years.
                 • ·Require proof of completion by Subjectl of an RCR training program.
                    within 1 year.
                 • Bar Subjectl from participating as a reviewer, advisor, or consultant for
                    NSF for a period of 1 year.




                                               1
    SENSTI1VE                                                                                 SENSITIVE


                                              OIG's Inquiry

           OIG conducted an inqUiry into an allegation of plagiarism in an NSF proposal
    (Proposal). 1 We reviewed the Proposal and identified 91 lines and ·1 embedded reference
    apparently copied from four sources without quotation marks or any other differentiation. 2 We
    contacted the PI3 (Subject!) and the co~Pr (Subject2) about the allegation. 5

          In their joint response letter, 6 Subjectl and Subject2 admitted that they copied text
  verbatim into the Proposal, believing that a citation in the vicinity of sections of copied text was
  adequate. 7 Subject2 also disclosed more copied material they believed might not have been
  properly attributed, and we determined that an additional 1 figure and 2 lines were not cited
  properly. We noted that none of the 5 sections of copied text were accompanied by an immediate
  citation to the source text. In one instance, a page and a half of copied text from a source. (Source
  B) was cited several lines prior to the copied material. Based on the subject's response, the total
  count was 93 lines with Subject I taking responsibility for 87 lines and Subject2 taking
· responsibility for 6 lines.

           The Subjects stated, "We mistakenly believed that this was appropriate so long as the
  sources were properly cited. We now understand that this is not appropriate."8 As attachments to
  their response, they also provided us evidence that some authors of the alleged sources re-used
  portions of their writing in later articles and that other researchers publish paraphrases of text the
. subjects copied verbatim. They appeared to believe both mitigated the act of copying. They also
  defended the apparent copying from Wikipedia by stating that Wikipedia cited the same sources
  they did.

          Even accurate citation without demarcation of a verbatim section of text does not
 adequately reflect that another resea&her' s exact words are being used. Further, for one section
 of text, the nearby citation does not reference the publication from which the text came (Source
 A) and most of the other copied text was not referenced at all to t;he source of the written work.

        Based on our inquiry, we concluded that Subject2's actions did not rise to the level of
research misconduct and we make no recommendations about Subject2 in this report. However,
we also concluded that there was sufficient evidence to proceed to an investigation ofSubjectl 's
actions because he accepted responsibility for the bulk of the apparently copied text.




  Tab3.
6
  Tab4.
7
  Tab 4, page 1.
8
  Tab 4,p.l.


                                                   2
SENSITIVE                                                                                 SENSITIVE




                                            University Investigation

       Consistent with our policy, we referred the investigation to Subject! 's University. 9 The
Provost, consistent with Universitypolicy, 10 assigned a professor 11 (the University Investigator)
to conduct the investigation. After reviewing ·the materials, the University Investigator reported
his conclusions to the Provost12 (the Director). The Provost provided a Report13 to our office.

          The University Investigator did-not find that research misconduct had occurred and the
Provost concurred. He stated that, in his experience, he finds it common "to copy complex
methods descriptions verbatim to ensure that all details are correct," provided the material is
cited. 14 Forthe.approximately62lines (or 1.5 pages) of copied text from Source B, the
University Investigator concluded, "Stylistically it might have been appropriate to include
additional citations, however, I am convinced that a rational person would deduct [sic] all the
following material comes from the reference to [the authors]. Again, stylistically, it would
perhaps have made it clearer if the copied material had appeared between quotation marks.
Ultimately, I regard the omissions of additional Citations and quotation marks to be minor. ..."

         The University Investigator concluded that "The omissions are subjective and a matter of
style, i.e. the reference in the beginning of the method description without repeating citations
throughout the method descriptions, and perhaps the authors' not choosing to use quotation
marks. In my experience, similar omissions are commonly made in journal articles. I regard
these omissions to be m.i.D.or and they could in no way be interpreted as willful ...." 15 He further
concluded that ''The main issue is therefore not about the "copying" of such material, but of
whether or not sufficient credit was given." 16

                                                    OIG's Investigation

        Based on our review of the University report, we determined there were several
indications that the University did not sufficiently evaluate evidentiary details. For example, the
University Investigator stated that the citation for a section of copied text was referenced at the
beginning. However, while a citation located several lines before the copied text shares some
authors with the alleged source in question, the citation was not the source 17 of the copied text.
Further, the cited reference did not contain the full text in question.

       We reviewed the University's website to determine what guidance is provided to faculty
regarding research integrity. Although their website addresses issues such as data management,


                                      Tab 5 contains the referral letter.




 13
    Tab 7.
 14
    Tab 7, page 2.
 15
    Tab 7, page 3.
 16
    Tab 7, page 1.
 17
    We had provided the source duriD.g our referral.


                                                             3
     SENSITIVE                                                                                              SENSITIVE


     plagiarism is not addressed. In contrast, the University's website contains numerous links for
     students to assist them in avoiding plagiarism. For example, a page providing students guidance
     on avoiding plagiarism states that to submit

            a paper or comparable assignment that is not truly the product of your own mind
            and skill is to commit plagiarism. To put it bluntly, plagiarism is the act of
            stealing the ideas and/or expression of another and representing them as your
            own. It is a form of cheating and a kind of academic dishonesty that can incur
            severe consequences ....

            A second obvious form of plagiarism is a wor'd-for-word copying of someone
            else's work, in whole or in part, without appropriate acknowledgement ...

            Any such verbatim use of another's work must be acknowledged by (1)
           appropriate indention or enclosing all such copied portions in quotation
           marks and by (2) giving the original source in a footnote. As a general rule,
           you should make very little use of directly quoted matter in your research paper.
           If you do not know how to footnote properly, ask your instructor for guidance. 18

        Were we to accept the University's analysis of the Subject's actions, we would be led to
believe that students are held to a higher standard when submitting class assignments than
professors are when submitting proposals to NSF. We find the University's conclusion
inconsistent with both its own definition of plagiarism and NSF's. Accordingly, we could not
accept the Report in lieu of conducting our own investigation and OIG contacted Subject! to
notify him. 19            -


         We noted that the University Investigator stated, "While it might have been better
stylistically to have the material taken from the [author's] publication appear in quotation marks,
in my opinion, no rational person would ever question the source of the material as it appears. " 20
He further stated that "the implications are minor and in no way would change readers'
interpretation of the source of the material that was submitted in the Applications."21 To address
this perspective, we received opinions from two scientists that work in Subject! 's research area.
Both experts independently concluded that most of the text we identified, including some of the
equation material, lacked proper attribution. Due to previous familiarity, both recognized the text
from the alleged sources without our providing them, yet both determined that the manner ill
which the copied text was presented would normally be interpreted as material composed in the
Subjects' own words.

        We also noted that Subject! has authored several articles in publications overseen by
Institute of Electrical and Electronics Engineers (IEEE). 22 The IEEE manual 23 indicates that the



   45 C-F.R.
20
   Tab 7, page 2.
21
   Tab 7, page 3.
22
   Out of 10 publications possible on the Subject's biographical sketch for              , he chose to listiJEEE
publications. The Grant Proposal Guide says these publications should be: "a list of: (i) up to five publications most


                                                          4
SENSITIVE                                                                                                   SENSITIVE


appropriate placement of the citation is a basic factor when evaluating plagiarism. 24 More
importantly, the manual leaves no doubt that quotation marks or other devices of differentiating
text are required: "Credit notices or references are not sufficient to deflecting a charge of
plagiarism if quotation marks or offset text have not been used to identify the specific material
being copied."25 Therefore, the standards of his research community are very similar to those of
most other research communities and require copied text to be quoted or offset.

       Further, Subjectl and Subject2 admit to copying verbatim text into the proposal. After
receiving our inquiry letter, they spoke with "senior colleagues" in their deparhnent who
subsequently informed them that the citation methods they used were insufficient to distinguish
original work (composed text) from copied work. 26

        We reviewed 7 ofSubjectl's other NSF proposals to determine ifa pattern existed. Of
these, we found approximately 25 apparently C9pied lines in an NSF CAREER proposal and its
apparent re-submission. 27 More than half of the copied text was in the CAREER proposal's
Educational Plan, copied verbatim from another author's ideas for promoting student
engagement. In 2 other proposals,28 we found approximately 45 lines of copied text per proposal,
with one additionally having 4 embedded references and 2 apparently copied figures.

                                                 OIG's Assessment

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence.29

                                                       The Acts

        Our review found Subjectl copied 87lines into the Proposal. OIG :firi.ds that Subjectl 's
actions constitute plagiarism. Based on the opinion of experts and Subjectl 's own words, we also
find that Subjectl 's acts constituted a significant departure from accepted practices.




closely related to the proposed project; and (ii) up to five other significant publications, whether or not related to the
proposed project." (GPG I.C.2.£i(c))
23
   Tab 9.
24
   Tab 9, page 1 ofpDF.
25
   Tab 9, page 2 of PDF.
26
   Tab          1.
 27




                           . We note that the latter is a collaborative and so bas a second author.




                                                             5
     SENSITNE                                                                                SENSITIVE


                                                   Intent

              OIG finds that Subject! acted recklessly at a minimum. While Subject! received his
     undergraduate degree outside the United States, he received his M.S. and Ph.D. in the U.S and
     has held an assistant professorship in the United States since 2006. He also has published
     numerous articles in professional journals which clearly define the professional expectations
     regarding appropriate attribution and citation. These facts suggest a reasonable person in his
     circumstances would have had knowledge of correct citation practices. By ignoring the
     conventions being used by others in his field of expertise, he recklessly copied and improperly
     attributed work by others.

                                             Standard ofProof

         OIG concludes that a preponderance of the evidence indicates that Subject! knowingly
 plagiarized, thereby committing an act of research misconduct. 30

                                    OIG's Recommended Disposition

        When deciding what appropriate action to take upon a finding of misconduct, NSF must
 consider:
              (1) How serious the misconduct was; (2) The degree to which the
              misconduct was knowing, intentional, or reckless; (3) Whether it
              was ail isolated event or part of a pattern; (4) Whether it had a
              significant impact on the research record, research subjeCts, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 31

                                               Seriousness

        Copied text serves to misrepresent one's body of knowledge and one's ability to
authoritatively express previous research to demonstrate expertise, presenting reviewers with an
inaccurate representation of a proposal's respective merit Two experts concurred that Subject!
appeared to claim the source authors' work by not quoting, offsetting text, or re-stating the ideas
in his own words.                ·

                                                 Pattern

        Subjectl appears to have a moderate pattern of plagiarism. In addition to the 87lines of
plagiarized material in the original proposal, we found over 100 lines of apparently copied text in
4 other NSF proposals, part of which included copying an educational plan into an NSF
CAREER proposal.                                                                ·




30
     45 C.P.R. part 689.
31
     45 C.P.R._§ 689.3(b).


                                                   6
SENSITIVE                                                                                                    SENSrTIVE


                                                Recommendations

Based on the evidence, OIG recommends NSF:

              •   Send a letter of reprimand to Subjectl informing him that NSF has made a finding
                                           32
                  of research misconduct;
              •   For a period of2 years, require Subjectl to certify to GIG's Assistant Inspector
                  General for Investigations (AIGn that proposals or reports he submits to NSF do
                  not contain plagiarized material;33
              •   For a period of 2 years, require that Subjectl submit assurances by a responsible
                  official of his employer to OIG' s AlGI, that proposals or reports submitted by
                                                                        34
                  Subjectl to NSF do not contain plagiarized materia1; and
              •   Require Subjectl to provide to OIGproofupon completion of a course in
                                                                           35
                  Responsible Conduct ofResearch (RCR), withilll year.
              •   Bar Subjectl from participating as a reviewer, advisor, or consultant for NSF for a
                  period ofl year. 36




32
    A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i)).
33
    Certification by an individual is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).
 34
    Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).
 35
    Completing an ethics course is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).
 36
    A Group ill action 45 C.F.R. 689.3(a)(3)(ii).


                                                              7
